                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: A06090042                                                                      Page 1 of 1



                 NSF OIG received an allegation against a subject' alleging plagiarism of ideas and words
                                                                                                         '
         from an unfunded postdoctoral fellowship grant proposal into a funded NSF proposal.2 The
         university3 conducted an inquiry into the allegations and concluded there was sufficient evidence
         to warrant an investigation. The Investigation Committee concluded, based on a preponderance
         of evidence, that the Subject's actions were a significant departure from accepted practices. The
         Subject resigned from the University and the Investigation Committee recommended no further
         action be taken at the institutional level. The University President concurred with the
         recommendation.

                 OIG concurred with the University assessment and recommended NSF make a finding of
         research misconduct. The Deputy Director made a finding of research misconduct and required
         that the Subject complete an ethics course.

                 This memo, the attached Report of Investigation, and the Deputy Director's letter constitute
         the case closeout. Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
                                                                                                                1
                                                                                                                I
                                     NATIONALSCIENCE FOUNDATION
                                          4201 WILSON BOULEVARD
                                         ARLINGTON, VIRGINIA 22230


                                            AUG 2 6 2008

     OFFICE OF THE
    DEPUTY DIRECTOR




CERTIFIED MAIL -RETURN RECEIPT REOUESTED




         Re: Notice of Research Misconduct Determination

Dear ~         r    .    0




Report prepared by NSF's Office of Inspector General ("OIG"), this proposal contained
plagiarized text.


Research Misconduct and Actions T a k q

Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
plagiarism in proposing or performing research h d e d by NSF ..." 45 CFR 5 689.1(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR 5 689.1(a)(3). A finding of research misconduct
requires that:

         (1)       There be a significant departure from accepted practices of the relevant research
                   community; and
         (2)       The research misconduct be committed intentionally, or knowingly, or recklessly;
                   and
         (3)       The allegation be proven by a preponderance of evidence.

45 CFR    5 689.2(c).
I   ,                                                                                                Page 2
         In your proposal, you copied text fiom a proposal previously prepared by one of your graduate
        students without providing proper attribution for such material. By submitting a proposal to NSF
        that copied the words of another without adequate attribution, as described in the OIG
        Investigative Report, you misrepresented someone else's work as your own. Your conduct
        unquestionably constitutes plagiarism. I therefore conclude that your actions meet the definition
        of "research misconduct" set forth in NSF's regulations.

        Pursuant to NSF regulations, the Foundation must also determine whether to make afinding of
        misconduct based on a preponderance of the evidence. 45 CFR 689.2(c). After reviewing the
        Investigative Report and the University's report, NSF has determined that, based on a
        preponderance of the evidence, your misconduct was reckless and constituted a significant
        departure from accepted practices of the relevant research community. 1am, therefore, issuing a
        finding of research misconduct against you.

        NSF's regulations establish three categories of actions (Group I, II, and III) that can be taken in
        response to a finding of misconduct. 45 CFR §689.3(a). Group I actions include issuing a letter
        of reprimand; conditioning awards on prior approval of particular activities from NSF; requiring
        that an institution or individual obtain special prior approval of particular activities fiom NSF;
        and requiring that an institutional representative certify as to the accuracy of reports or
        certifications of compliance with particular requirements. 45 CFR $689.3(a)(l). Group 11
        actions include award suspension or restrictions on designated activities or expenditures;            .          .
        requiring special reviews of requests for funding; and requiring correction to the research record.       .' -
        45 CFR §689.3(a)(2). Group III actions include suspension or termination of awards;                   --.-        -
        prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or
        suspension fiom participation in NSF programs. 45 CFR $ 689.3(a)(3).

        In determining the severity of the sanction to impose for research misconduct, I have considered
        the seriousness of the misconduct; our determination that it was committed recklessly; the
        determination that it was an isolated incident; and the significant mitigating factors present,
        including your contribution to the intellectual merit of the proposal in question, as well as the
        history of collaboration between you and the graduate student. I have also considered other
        relevant circumstances. 45 CFR 5 689.3 (b).

        I, therefore, am requiring you to complete an ethics training course on plagiarism by June 1,
        2009. You must certify in writing to the OIG that such training has been completed.
                                                                                                                  -
                                                                                                              -.          7.
                                                                                                                     -.
        Procedures Governing Appeals                                                                               - -- -

        Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal of this
        decision, in writing, to the Director of the Foundation. 45 CFR 4 689.10(a). Any appeal should
        be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
        Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
                                                                                                                   -.r-
                                                                                          Page 3
decision will become final.- For your information we are attaching a copy of the applicable
regulations..If you have any questions about the foregoing, please contact              Assistant
General Counsel, at (703) 292-8060:
                                                                                                    -

                                                    Sincerely,



                                                    Kathie L. Olsen
                                                    Deputy Director



Enclosures
- Investigative Report
- 45 C.F.R.Part 689
         National Science Foundation
         Office of Inspector General




                            Confidential
                        Investigation Report
                      Case Number A06090042

                          March 31,2008


NSF OIG Form 22a (1103)
                                     Executive Summary
Allegation:     Plagiarism of ideas and words from an unfunded postdoctoral fellowship grant
                proposal into a funded NSF proposal.

University
Inquiry:        University conducted an inquiry into the allegations and concluded
                                                                          . . .
                                                                                   there was
                sufficient evidence to warrant an investigation.
University
Investigation
and Action:     Investigation Committee concluded, based on a preponderance of evidence, that
                the Subject recklessly plagiarized words, actions deemed a significant departure
                from accepted practices.

                Investigation Committee concluded that there was insufficient evidence to
                substantiate the allegation of plagiarism of ideas.

                Subject resigned from the University effective June 30,2007. Investigation
                Committee recommended no further action be taken at the institutional level.
                University President concurred with the recommendation.
OIG
Assessment:     OIG concurs with University assessment.
                         The Act: Subject plagiarized words in one proposal.
                         Intent: Subject acted recklessly.
                         Standard of Proof: A preponderance of evidence supports the
                         conclusion that the Subject plagiarized words.
                         Significant Departure: Subject's plagiarism represents a significant
                         departure from accepted practices.
                         Pattern: None.
OIG Recommends:
                           Make a finding of research misconduct against the Subject.
                           Send the Subject a letter of reprim&d.
                           Require certifications from the Subject for a period of 2 years.
                           Require assurances from the Subject for a period of 2 years.
                           Require certification of attending an ethics class.
                                              Universit~'~
                                                        Inquiry

        A university' faculty membe? (Mentor) was "accused of plagiarizing the work of one of his
former graduate studentsn3in a funded NSF proposal? Specifically, the Mentor allegedly took a
postdoctoral fellowship grant (Fellowship) that his former graduate student (Graduate Student)
wrote, copied the text, made few and only minimal changes to the text, and submitted the proposal to
NSF as sole PI. The Graduate Student was not acknowledged in the proposal and was unaware of its
submission. She learned of the submission via an e-mail from the Mentor, in which the Mentor
stated, "After some rewriting, I submitted to NSF the [ ~ e l l o w s h iproposal
                                                                         ~]~      that you wrote to work
in [the Fellowship sponsor]'^ lab."7 The Graduate Student forwarded the e-mail to a University
faculty member who examined the proposals and notified the Department Head that they "appear to
me to be identical in content and appear to be at least 90% identical in wording."' University
administration was informed of the allegation and conducted an inquiry.9

        Per the University policy,10the Mentor was notified of the allegation. The Mentor responded
that the allegations were "factually erroneous,"" explaining:

             1. I was a co-author of, and significant contributor to, the original [Fellowship]
                proposal;
             2. [The Graduate Student] agreed, in both word and deed, that the [Fellowship]
                proposal would be resubmitted to the National Science Foundation (NSF) as a
                grant proposal with myself as Principal Investigator; and
             3. [The Graduate Student] has, in word and deed, chosen to pursue research
                interests different than those described in the [Fellowship] and NSF
                proposals.'2

Specifically, the Mentor argued that [heco-authored the proposal in his role "as the senior scientist in
the laboratory and as [the Graduate Studentl's dissertation research advi~or;"'~ the Graduate Student




funded, but the content was incorporated into the Graduate Student's dissertation chmter. entitled "Conclusionsand
Future Directions" (Tab 4).


' Tab 6.
9 I.-r rr
  1aIJ I .
'O Tab 8,
"  Tab 9, pg 1 .
" ~ a b 9 , p g1 .
13
   Tab 9, pg 2.
had informed him that "she planned to pursue a different, and unrelated, area of research" at a
different instituti~n;'~"~he and the Graduate Student had "entered into an oral a reement that the
application would be submitted to NSF with myself as Principal Investigator;"lgthe Graduate
Student had willingly "given me the entire [Fellowship] proposal, word for word, on disk;" " the
other University faculty member to whom the Graduate Student forwarded the Mentor's e-mail had
seen a draft of the NSF proposal yet seemed surprised that the two were nearly identical;'* and
"There is no formal mechanism in a grant proposal for citing a previously u n b d e d proposal, unless
it is being submitted to the same agency, which was not the case."lg

       The Vice President for ~ e s e a r c h ~
                                              assessed
                                                '      the allegation2' and decided to proceed with an
inquiry.22An Inquiry Committee (Commitiee 1) was convened and computer files were sequestered.

       Committee 1 produced a thorough and detailed "Report on Scientific Misconduct Allegation"
(Inquiry Report) containing considerable documentary evidence.23Committee 1 found that:

                    The proposals "are nearly identical". . . "with the exception of a page of
                    introductory material which may have originated with [the Mentor]."
                    Computer files indicated that the Graduate Student "developed a
                    significant component of the work outlined in the [Fellowship] proposal,
                    and much of this work stemmed from work [she] did as part of her Ph.D.
                    research in [the Mentorl's lab."
                    While the Mentor saw and edited Fellowship proposal drafts, "The
                    committee was not able to find documented evidence of collaboration that
                    indicated the level of authorship claimed by [the Mentor]."
                    The Mentor and the Graduate Student disagreed about the existence of an
                    oral agreement regarding reuse of the proposal.
                    The Mentor and the other University faculty member disagreed regarding
                    the extent to which the other faculty member was informed about the NSF
                    proposal before submission. Although the faculty member did write a
                    letter of support for the NSF proposal, he claimed to not know its content.
                    Evidence suggested that the Graduate Student did intend to continue this
                    line of research.
                    The NSF proposal contains information regarding topic areas with which
                    the Mentor has not previously worked, but with which the Graduate
                    Student was familiar.



"    Tab 9, pg 4.
l6   Tab 9, pg 6.
l7   Tab 9, pg 6.


::uh
l8   Tab 9, pg 8.


2' Tab 10.
" ~ a b11, pg 1.
23 Tab 1 1. A list of attachments appears on pgs 9-1 1. Due to the copious nature of these documents, they are excluded
f?om the present report, but are available for review in OIG as part of the larger file.
                   "Standard practices in the-ciences            appear to range widely
                   regarding the continued development of research conducted by students in
                   a research laboratory.''
                   The Mentor argued "that the ideas in the [Fellowship] proposal were a
                   logical progression of the work being done under his dire~tion."'~

Committee 1 recommended the matter be referred to investigation. 25

        The Mentor res onded to the Inquiry ~ e ~ o rproviding
                                                       t?~      "a 'markup' version of the report
that corrects what we2? believe were inadvertent omissions andlor clarifications of the factual
record." 28 Committee 1 however did not find "material reason to change the report substantially."29

        Based upon the Inquiry Report, the University's Deciding                    decided "that sufficient
evidence of plagiarism exists to warrant an i n ~ e s t i ~ a t i o nThe
                                                                     ."~~University notified32OIG of the
allegation and requested that our office defer its investigation.33OIG agreed.34

                                                Universitv Investigation

        An investigation committee (Committee 2) was empanelled3' and charged to "provide a
finding concerning the single allegation that [the Mentorl's use of [the Graduate Studentl's
 ello ow ship] proposal constitutes plagiarism."36 Committee 2 produced a detailed and thorough
Investigation Report (Report), containing substantial documentary evidence.37

         Committee 2 "considered separately the possibility of plagiarism of ideas, processes and
results (IPR) fiom the possibility of plagiarism of words."38 Committee 2 began with the premise
that "[The Mentor] recognizes that the work statements in the two proposals are nearly identical, but
raises as an affirmative defense that he was a co-author of the [Fellowship] proposal and had the
right to resubmit the document solely under his name to the N S F . " ~Committee
                                                                        ~         2 also noted that



24 Tab 11, pgs 4-7.
25 Tab 11, -pg- 8.
26 Tab 12.
27 LWe'refers to the Mentor and the Mentor's atorney,-who                        prepared the response.
28
   Tab 12, vn 5.




'' ~
32 Tab 1.
     a 1.b
34 Tab 14. The Mentor was also notified of the investigation (Tab 15).
35 Tab 16. The Mentor objected to the inclusion of a committee member because she served on the Inquiry Committee;
however, the Vice President for Research decided 'Yo constitute the investigation committee including [herl" (Tab 17).
36 Tab 18, pg 1. Tab 19 contains Committee 2's investigative plan and Tabs 20 and 21 contain documents related to the
a pointment of an outside expert.
"Tab 22. A list of attachments appears on pgs 18-20. Due to the copious nature of these documents, they are excluded
fiom the present report, but are available for review in OIG as part of the larger file.
38 Tab 22, pgs 6-7.
39 Tab 22, pg 2.
    'Weither the inquiry nor the subsequent investi ation has identified further instances of plagiarism or
    additional allegations of research misconduct." O        5
                                                                                                             I



           In terms of plagiarism of IPR, "the committee was presented with contradictory statements in
    the context of the origination of IPR - contradictions it was unable to resolve."41 For example, the
    Mentor claimed to have contributed "1 00% of the ideas" for the Fellowship proposal while the
                               contributed only 5%.42The Mentor also claimedge IPR originated in his
                                while the Graduate Student, the other University faculty member, and
    another researcher claimed to have discussed similar ideas beginning in 1993, and the two other
'   researchers had submitted an NSF proposal containing similar ideas in 1994- 1995.44

            Committee 2 tried to differentiate the Graduate Student's and the Mentor's research, but the
    evidence was similarly ambiguous.45For instance, a document summarizing the Mentor's research
    ideas46and a document outlining the Graduate Student's research, 47 which were produced
    independently yet simultaneously, "suggest[], but do[] not prove, that the [Graduate Student] did
    originate the ideas in the [Fellowship] and subsequent NSF proposal, and further suggest[] that [the
    Mentorl's research agenda would take him in a different dire~tion."~'However, the outside expert
    concluded that "the proposed experiments were the natural progression of previous work and could
    have been developed by either scienti~t."~'

            Based on documentary evidence; the interviews;50the Mentor's statement^;^' and "the eight
    year history of [the Graduate Student] working with [the Mentor] in his lab and by e-mail, and the
    likelihood that during this period significant discussion of the ideas - if not the experimental details
    (which the committee understands are fairly standard) - contained within the [Fellowship] proposal
    took place,"52 Committee 2 concluded that it "could not find adequate evidence to show [the Mentor]
    had no claim of legitimate contributiony'to the I P R . ~ ~

            In terms of plagiarism of words, Committee 2 compared the proposals and found 13 1 textual
    differences, 50 of which were pronoun shifts from "I" in the Fellowship proposal to "we" in the NSF
    proposal. Other differences were consistent with the NSF proposal being based on a draft version of
    the Fellowship proposal.54 In addition, the NSF proposal included references to personal


    40 Tab 22, pg2.
    41 Tab 22, pg 7.
    42 Tab 22, pg 7.
    43 Tab 23.
    44
       Tab 22, pg 7. Tab 24 contains the previous NSF proposal.
    45 Tab 22, pg 7.
    46 Tab 25.
    47 Tab 26.
    48 Tab 22, pgs 7-8.
    49
       Tab 22, pg 8.
    50
       Tab 27. Complete transcripts of interviews are available for review in OIG as part of the larger file.
    "  Tab 28. Attachments listed on the Exhibit List are available for review in OIG as part of the larger file as are additional
    statements by the Mentor.
    52 Tab 22, pg 8.
    53 Tab 22, pg 8.
    54 Tab 29.
communication between the Graduate Student and researchers even though the Mentor was not part
of those discussion^.^^

        Committee 2 therefore examined the following questions in the remainder of its
investigation:

                     Was [the Mentor] a co-author of the [Fellowship] grant application?56
                     Was explicit permission iven by [the Graduate Student] for [the Mentorl's
                     submission of her work?       6
                                                        n


        In considering the issue of co-authorship, Committee 2 examined the finalized proposals,
Fellowship proposal drafts, other documents written by the Graduate Student, and statements from
interviewees including two individuals who worked in the Mentor's laboratory.58Committee 2 could
not find "substantial evidence that su ports [the Mentorl's claim that he helped draft andlor revise
the proposal for intellectual contenty7' nor could it find "credible first-hand evidence that [the
Mentor] contributed on more than an editorial basis in the drafting of the [Fellowship] proposal."60
Committee 2 also could not verify the Mentor's claim "that more substantial edits would have shown
up in e-mails that were deleted from the [academic16' Department's mail server."62Instead,
Committee 2 found evidence suggesting [the Mentor] was unfamiliar with certain methodologies
contained in the proposals, which "raises further concern about [the Mentorl's contribution to the
substance of the [Fellowship] proposal."63

        Furthermore, Committee 2 found "it highly unlikely that if [the Mentor] had been fully
involved in the [Fellowshi ] proposal development, he would have submitted a version to the NSF
that contained . . . errorsYy6'asthe non-finalized Fellowship proposal had. Similarly, Committee 2
observed that had "[the Subject] approved the final document [of the Fellowship proposal], he would
have seen that his contributions were not acknowledged, and if warranted, could have directed [the
Graduate Student] to correct this," adding, "The fact that he did not supports one of two conclusions:
either (1) he did not see the final version (and hence could not have approved it) or (2) at the time he
did not feel his contributions warranted inclusion" in the Fellowship's acknowledgement section.65

       Lastly, Committee 2 quoted NSFYsGrant Proposal Guide regarding proper
scholarship and attribution.66Given NSF7spolicies, Committee 2 wrpte:


55   Tab 29.
56 Tab 22, pg   9.
*'Tab 22, pg 13.
     Their statements, like statements fiom all those interviewed, are available for review in OIG as part of the larger file.
59 Tab 22, pg   9.
                11.

62 Tab 22, pg 1 1.
6 3 ~ a b 2 2 , p11.
                 g
64 Tab 22, pg 12.
65 Tab 22, pg 12. The acknowledgement section referenced is Section 3        0      c     (    T    a     b 3, pg 22).
Committee 2 was interested in the Fellowship proposal's final version since the University Research Handbook states
that in order for one to qualify as an author one must have approved the final version of a document (Tab 30).
66 GPG Section I.D.3.
          No matter what conclusion may be drawn, it would be impossible not to include
          [the Graduate Student] as at least a co-author of the NSF proposal. [The Mentorl's
          failure to acknowledge [the Graduate Student] clearly does not meet this guideline
          and raises serious questions concerning his intent to mask from NSF [the
      I
          Graduate Studentl's role in developing the proposal. "

        For the above reasons, Committee 2 concluded that "a preponderance of evidence indicates
that [the Mentor] is not a co-author of the [Fellowship] proposal."68

       In considering the issue of permission, Committee 2 considered interview statements and
written documents such as the Graduate Student's job applications. While the Mentor's statements
included his adamant claim of havin "received explicit verbal permission from [the Graduate
Student] on three separate occasions%9 to resubmit the [Fellowship] proposal," "[the Graduate
Student] categorically denies providing this permission, or even knowing that [the Mentor] was
planning to submit the [Fellowship] proposal to the NSF."~' Committee 2 added that, "[The Mentor]
was unable to provide any evidence, beyond his own statements, to support his claim that [the
Graduate Student] gave verbal permission" and "the committee has difficulty squaring the known
circumstances with [the Mentorl's assertions that permission was given."7' In fact, the Graduate
Student's job application at another ~ n i v e r s i t ysubmitted
                                                         ~~       after the Mentor claimed to have received
permission,73provided evidence that the Graduate Student intended to continue this research.
Committee 2 noted that this application "provides evidence that . . . [the Graduate Student] had not
made a final decision to abandon the line of research in question."74

        Committee 2 addressed the Mentor's claims that the Complainant had seen the NSF proposal
prior to submission, and had even "told [the Mentor] to 'submit it on your own,' explicitly
recommending that [the Mentor] resubmit the [Fellowship] proposal to NSF."~' This claim however
contradicted the other University faculty member's statement that while he knew a proposal was
being submitted, evidenced by his letter of support, he had not seen it nor recommended its
resubmission. Committee 2 concluded "that even if [the other University faculty member] had given
(possibly tacit) approval for resubmission of the [Fellowship] proposal to the NSF, it ultimately
would have little bearing on whether it was proper for [the Mentor] to do ~ 0 . " ~ '

        Committee 2 also addressed the Mentor's claim that the Graduate Student had willingly
provided him with a disk containing the proposal, and that the Graduate Student had not considered
his actions inappropriate, evident by her reaction to the e-mail and her subsequent request of a letter

                                                       i
67 Tab 22, pg 12.
   Tab 22, pg 15.
69 The Mentor claims to have received permission: 1) when the Fellowship proposal was rejected; 2) when the Mentor
received the disk containing the proposal !?om the Graduate Student; and 3) when the Graduate Student left the
University (Tab 22, pg 13).

-:;
70 Tab 22, pg 13.




73 Tab 3 1. Tab 3 1 also contains a draft of the application with the Mentor's edits indicating his knowledge of its contents.
74 Tab 22, pgs 13-14. ,
75 Tab 22, pg 14.
76 Tab 22, pg 14.
of recommendation from the Mentor. Committee 2 found evidence that "it was standard practice in
the lab to leave behind a record of all work done in the lab," adding that "even if [the Graduate
Student] expected [the Mentor] to use materials found in the [Fellowship] proposal, this does not
indicate she expected him to use the proposal verbatim without attribution nor does it give him
implicit permission to do so."77 Committee 2 also found "the wording of this emai178to be
misleading, and may, in part, explain [the Graduate Studentl's initial response."79Lastly, Committee
2 found ". . . [the Graduate Studentl's subsequent solicitation of advice fiom [the other University
faculty member] supports the conclusion she was unaware that [the Mentor] had submitted a
proposal (in any form, much less a near verbatim copy of the [Fellowship]) to the NSF."~'

        In regard to permission, Committee 2 therefore concluded that it "finds it more likely than
not, that [the Graduate Student] did not provide [the Mentor] with permisgion to re-use the
[Fellowship] proposal in a re-submission to the NSF."~'

        Based on its analysis, Committee 2 found "insufficient evidence to determine whether
plagiarism of ideas, processes or results occurred" but found "that, based on a preponderance of
evidence, plagiarism of words from the [Fellowship] proposal occurred" since "(a) a preponderance
of the evidence indicates that [the Mentor] is not a co-author of the [Fellowship] proposal, and (b)
there appeared to be no evidence, beyond [the Mentorl's statements, supporting the claim of explicit
permission to resubmit the [Fellowship] proposal essentially verbatim to NSF." Committee 2
found that the Mentor acted recklessly since "The committee finds the milder 'careless' level of
intent cannot be used to describe verbatim use of essentially an entire document - including
typographical errors and inconsistencies - without any kind of attrib~tion."~~

        Committee 2 determined that the Mentor's "actions represented a significant de arture fiom
accepted practices."84 Specifically, it stated that University, NSF, and academic society!5 guidelines
prohibit plagiarism of wordsSg6 Furthermore, Committee 2 "repeatedly asked those interviewed if
verbatim use by a PhD supervisor of a graduate student's proposal for work at another institution
was at all consistent with acceptable practice in the biological community, even if the proposed work
was based upon a previous collaboration. The consensus seems to be that such practices are unheard


       Committee 2 recommended that "no further action be taken in this matter at the institutional
level"88since the Mentor resigned from the University effective June 3 0 , 2 0 0 7 . ~ ~
77
   Tab 22, pg 15.
   Tab 5.
''
80
   Tab 22, pg 14.
   Tab 22, pg 14.
   Tab 22, pg 15.
B 2 ~ a b 2 2 , p15.
                  g
83 Tab 22, -pg- 15.
84 Tab 22, pg 16.
85

86 Tab 22, pg 16.
87 Tab 22, pg 16.
" Tab 22, pg 17.
89 Tab 32. In the Mentor's response to the draft report (Tab 40, pg 7), the Mentor wanted OIG to clarify the chronology,
specifically that his resignation did not occur due to the allegation. He wrote:
                                     Subject's Res~onseto Investigation R e ~ o r t

        The Mentor received the draft Report for commentg0and provided a response prepared by his
attorney and a response he himself prepared.g1The response prepared by his attorney stated, "A
review of the Draft Investigation Report reveals ~ignificant~procedural,   factual and due process
issues that culminated in an unjust result and conclusion."92 The Mentor's objections included what
he perceived as the untimely and inadequate sequestering of records;93insufficient notification of the
Mentor about the investigation, the process, and his rights;94University failures in charging the
~omrnittee;'~     bias and conflicts of intere~t;'~
                                                  loss of key e~idence;~'
                                                                       issues related to inter~iewing;~'
misapplication of the burden of proof standard;99and errors in applying the University policy within
the ~ e ~ o r t . "Attachments
                   '            to the response included a marked up version of the Report with
comments; the Mentor's rebuttal of selected interviews; references regarding the issue of
corresponding author; la letter refuting the other University faculty member's testimony;
documentation of his collaboration with the Graduate Student; and information clarifying a salary
issue that arose during the inquiry/investigation.lO'
                                                 University Adiudication           '




       The University presidentlo2concurred with the Committee's findings and explained that " the
University] is not in a position to impose sanctions on [the Mentor]" because of his resignation. lo                 I
However, the University chose to terminate the NSF award and return the fbnds.lo4
                                                     OIG's Assessment
      OIG concludes that the University followed reasonable procedures and produced an accurate
and complete body of evidence addressing the allegation of plagiarism in the Mentor's NSF

            Although the allegations against me certainly influenced my decision to stay in my new job, it had
            no bearing whatsoever on my decision to apply for my present position or begin my new position
            in May 2006 before this allegation was even brought to my attention. In fact. my auulication for
            my present position preceded bv 6 months the submission of the NSF proposal. It even preceded
            the news that [the Graduate Studentl's [Fellowship] proposal had not been funded. ...
            I arranged with [the University] a one-year leave of absence beginning May, 2006. The terms of
            contractual agreement between [the University] and myself were that I would notify [the
            University] by March 30,2007, of my intent to either return to [the University] or remain in my
            present position. I was thus essentially forced to elect to tender my resignation by the timing of the
            contractual agreement and not by the allegation against me. (Emphasis in original.)
90 Tab    33.
9LTab 34.
92 Tab 34, pg 1.
93
   Tab 34, pg 1.
94 Tab 34, pg 2.        .
95 Tab 34, pg 2.
96
   Tab 34, pg 3.
97 Tab 34, pg 3.
98 Tab 34, pg 4.
99 Tab 34, pg 4.
loo   Tab 34, v g 5 .                                                    1


'" Tab 35. Tab 36 contains the letter sent to NSF requesting termination of the award.
                                                                 9
proposal. OIG finds that the University's final report, including supporting evidence, adequately
responds to the scientific issues identified in our investigation referral letter. Therefore in lieu of
conducting an investigation, OIG accepted the University's Report.

         OIG contacted the Mentor to provide him an opportunity to further respond to the
allegation.10sThe Mentor, via his attorney, argued that

           the committee apparently ignored or gave very little weight to: eyewitness
           testimony of other members of [the Mentorl's lab; a strong personal relationship
           between the accuser who brought the charges and [the Mentorl's former student
           whose work was allegedly plagiarized; discounting the testimony of [the Mentor's
           expert witness],'06stressing the minimal significance of the subject's actions,
           while giving apparent weight to the opinions of an 'expert' who testified well
           beyond the scope of his expertise; and so forth.lo7

OIG reviewed the Mentor's response and concluded that a finding of research misconduct is
warranted.

       A finding of research misconduct by NSF requires that (1) there be a significant departure
from accepted practices of the relevant research community, that (2) the research misconduct be
committed intentionally, or knowingly, or recklessly, and that (3) the allegation be proved by a
preponderance of the evidence.'''

                                                The Acts
       The Mentor allegedly plagiarized text and ideas into his NSF proposal from his Graduate
Student's Fellowship proposal. The Mentor admitted to submitting the identical proposal to NSF, but
argued that he had co-authored the initial text and had permission to resubmit the proposal.

       Committee 2 found "insufficient evidence to determine whether plagiarism of ideas,
processes or results occurred." However, the committee found ''that, based on a preponderance of
evidence, plagiarism of words from the [Fellowship] proposal occurred,"'0g concluding that "(a) a
preponderance of the evidence indicates that [the Mentor] is not a co-author of the [Fellowship]
proposal, and (b) there appeared to be no evidence, beyond [the Mentorl's statements, supportin the
claim of explicit permission to resubmit the [Fellowship] proposal essentially verbatim to NSF.ol!,

           Thus, based on a preponderance of the evidence before the investigation
           committee, the committee finds that [the Mentorl's use of [the Graduate
           Studentl's work constitutes research misconduct in that 1) it meets the definition
           of plagiarism as contained in NSF's Research Misconduct regulations (45 CFR

'ol   Tab 37.



and letters of character reference written on the Mentor's behalf, are available for review in OIG as part of the larger file.
lo' 45 C.F.R.   §689.2(c).
log Tab 22, pg 15.
"O Tab 22, pg 15.
        689), 2) it represents a serious departure fiom accepted practices at [the
        University and in the [academic]"' community, and 3) it was committed
        recklessly.112

        OIG concurs with Committee 2. While OIG agrees that the genesis of the proposal's IPR is
 unclear given the mentor-student relationship between the Mentor and the Graduate Student, OIG
 concurs that the Mentor's resubmission of his Graduate Student's Fellowship proposal to the NSF
 without acknowledgement constitutes plagiarism and represents a significant departure from
 accepted practices.

                                              Intent
        Committee 2 found the Mentor acted recklessly:

                The committee finds the milder 'careless' level of intent cannot be used to
                describe verbatim use of essentially an entire document - including
                typographical errors and inconsistencies- without any kind of attribution.
                Based upon the testimony of [the Mentor] and the e-mail correspondence
                between [the Mentor] and [Graduate Student], it is possible that the
                respondent was (erroneously) convinced his interaction with and
                supervision of [the Graduate Student] were sufficient to give him
                ownership of the words appearing in the [Fellowship] proposal. [The
                Mentor] also claimed particular knowledge of the ethical conduct of
                research, was in a position to understand the need to appropriately cite and
                acknowledge the work of others, and to apply that knowledge through
                normative practices. If the committee had been able to verify that the
                knowledge he had of these issues was aligned with what is expected at
                [the University] and among scientists in his discipline, the level of intent
                would have been established as knowing. However, the committee was
                unable to find sufficient evidence that he was actually aware, as he should
                have been, that his actions represented a significant departure from

                reckless.R
                accepted ractices. Thus, the committee finds that the level of intent is


        Admittedly, one could argue the Mentor's actions were knowing. As detailed, the Mentor
 changed pronouns fiom 'I' to 'we,' was unfamiliar with certain ideas in the proposal, included
 information from conversations in which only the Graduate Student had been a part, etc. In addition,
 had the allegation not been raised, the Mentor could have harmed his departed graduate student's
 budding career by taking her ideas and getting them funded.

        Nonetheless, OIG concurs with Committee 2 that the Mentor's actions were reckless. Though
 the Mentor clearly knew he was resubmitting the same proposal, his statements indicate that he
 believed his actions were justified given the academic and financial support inherent in the mentor-
 student relationship as well as verbal consent he claims he received from the Graduate Student, but

-llI
 '''Tab 22,pg 16.
 "'Tab 22,pg 15-16.
which the Graduate Student denies. Similar to Committee 2, OIG believes the evidence suggests that
the proposal could have been a product of the eight years the Graduate Student spent in the Mentor's
lab, a culmination of ideas and experiments discussed during that period. Additionally, OIG, again
like Committee 2, notes that the Mentor's academic record includes no other research misconduct
allegations. While our office is not suggesting that these factors excuse the Mentor's actions, we did
however determine that they justify considering the action as reckless rather than knowing.

                                         Standard of Proof
       Committee 2 found by a preponderance of evidence that the Mentor plagiarized text in his
NSF proposal. Because the preponderance of evidence does show that the Mentor copied text into
his NSF proposal without attribution, we concur with Committee 2.

        OIG concludes that the Mentor did, by a preponderance of evidence, recklessly plagiarize
text, under circumstances constituting a significant departure fkom accepted practices, thereby
committing an act of research misconduct. l4   '
                                     OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:

           (1) How serious the misconduct was; (2) The degree to which the misconduct
           was knowing, intentional, or reckless; (3) Whether it was an isolated event or
           part of a pattern; (4) Whether it had a significant impact on the research

                                                   '
           record, research subjects, other researchers, institutions or the public welfare;
           and (5) Other relevant circumstances. Is

                                              Seriousness
        The en tor copied nearly the entire hfunded Fellowship proposal his Graduate Student
wrote into his funded NSF proposal without acknowledging the contributions of the Graduate
Student or the Fellowship's sponsoring researcher and without citing the Graduate Student's
dissertation. No evidence exists confirming the Mentor's claim that the Graduate Student knew her
Ph.D. advisor was resubmitting the proposal to NSF. Instead, evidence indicates that the Graduate
 Student intended to continue pursuing this research. The Mentor's actions thus created a situation in
which not only was the Graduate Student's effort not disclosed, but her own research was
jeopardized.

        In addition, the Mentor actively wrote the NSF proposal to further present the intellectual
content of the proposal and the text as the product of his own work, work he claims he had the right
to reproduce as his own. For example, the Mentor changed 'I' from the Fellowship proposal to 'we'
in the NSF submission and did not remove references to conversations the Graduate Student had
with researchers, conversations in which he was not a part. The NSF proposal thus provided
reviewers with inaccurate information by which to assess its merit.


'I4   45 C.F.R. part 689.
'I'   45 C.F.R. (j 689.3(b).
          Lastly, but perhaps most crucially, the Mentor's actions are a violation of the standards of
 scholarship, of the fundamental tenets of research ethics, and of the mentor-student relationship. The
 Graduate Student worked with the Mentor, her Ph.D. advisor, for eight years, and the Mentor
 justified his resubmission of the proposal partially based on this relationship. The Mentor claimed
 that, in his role as mentor, he co-authored the Fellowship proposal, had funded and helped develop
 the Graduate.Student's ideas, and had been given the Fellowship proposal on disk by the Graduate
 student. However, evidence indicated that the Mentor provided only minor edits to the proposal, a
 level of involvement that might be consistent with the mentor-student relationship,'but one that does
 not confer the right to use the material as the reviewer's own. Funding a student and helping a
 student develop ideas also do not confer blanket permission to reuse his or her text. Similarly, while
 evidence suggested that it is standard practice for graduate students leaving a laboratory to leave
 their materials in that laboratory, nothing presented to the committee suggested that this standard
 practice allowed a researcher to present material contained on those disks as their sole author. As
 Committee 2 wrote, "The seriousness of this case finds its base primarily in an abrogation of a
 mentor's duty to teach correct principles of authorship and respect for the peer review process, and to
 recognize the independence of colleagues functioning at every level in the mentor's group."''6

                                Degree to which Misconduct was Reckless
         In submitting the NSF proposal, the Mentor clearly knew he was resubmitting his Graduate
 Student's Fellowship proposal as his own. Furthermore, the Mentor not only copied the text of
 another author without attribution, but also actively modified the proposal to further present the
 content of the text as the product of his own work. In so doing, the Mentor violated several tenets of
 the research community.

          First, the Grant Proposal Guide clearly articulates NSF's expectations.

          NSF expects strict adherence to the rules of proper scholarship and attribution.
          The responsibility for proper attribution and citation rests with authors of a
          proposal; all parts of the proposal should be prepared with equal care for this
          concern. Authors other than the PI (or any co-PI) shoulcl be named and
          acknowledged. Serious failure to adhere to such standards can result in findings
          of research misconduct. NSF policies and rules on research misconduct are
          discussed in the AAG Chapter VII.C, as well as in [45] CFR Part 689."'

 The Mentor has submitted nine proposals to NSF since 1989, only one of which has received
 funding,"* and, as such, should be familiar with NSF requirements.

        Second, the Mentor's own Biographical ketch"^ suggests that he should be aware of                                      i
 standards for proper acknowledgement. For example, according to the Biographical Sketch, the



 'I6   Tab 22,pg 16.
 'I7   GPG Section I.D.3.  (June 2007). An identical provision existed in the GPG in effect at the time the Mentor submitted
    the ro osal
baT""                     2).
       Tab 2 contains the Biographical Sketch the Mentor submitted as part of the NSF proposal.
Mentor is a reviewer for 12 scientific journals.         for one journal published by an
academic society'20in the Mentor's field states:




Similar ethics standards appear in other journals, many of which should be familiar to the Mentor.

        Third, as a faculty member, the Mentor violated his University's policy describing the
qualifications of authorship, a policy that is broadly recognized as a normative standard. According
to the




Evidence indicates that the Mentor, who has taught at the University since 1995, did not satisfy the
second or third criterion, negating his claim to co-authorship under his University's policy. Without
co-authorship, the Mentor's resubmission of his Graduate Student's proposal amounts to plagiarism
ofwords.      .

         Lastly, but most crucially, the Mentor violated the student-mentor relationship, a special,
trusted relationship within the research community. This relationship is indeed so unique that
research ethics manuals often address the issues that such a relationship raises. For example, Sigma
Xi, The Scientific Research Society, writes in "Honor in Science": "The Graduate student is also
entitled to the same treatment in respect of written work from laboratory heads or supervisors that
the latter would expect from journal editors or referees . . . if that work is taken and 'improved' by
the supervisor and published without the student's knowledge or permission . . . call it plagiarism or
plain theft."124Similarly, The National Academies' "On Being a Scientist: Responsible Conduct in
Research" contains a section entitled "Authorship Practices" in which they state: "The allocation of
credit can be particularly sensitive when it involves researchers at different stages of their careers-
for example, postdocs and graduate students, or senior faculty and student researchers. In such
situations, differences in role and status compound the difficulties of according credit."12s




12' Tab 30.
    Tab 30.
    "Honor in Science." 1997. Sigma Xi, The Scientific Research Society. Research Triangle Park, North Carolina.
'lS "On Being a Scientist:Responsible Conduct in Research." 1995.2"*Ed. National Academy Press. Washington, D.C.
        It is the complexity and violation of this tenuous relationship that is here at issue and that
makes the Mentor's action such an egregious violation of research ethics. The Mentor, who has
mentored a total of eight graduate and four postdoctoral students,126violated the trust of his Graduate
Student by presenting her work as solely his own. Indeed, had the allegation not been raised, the
Mentor would have proceeded with work under an award made possible by his Graduate Student's
work, and possibly harmed her fledgling career. The Mentor's actions, therefore, not only served to
strain the unique relationship, but also served to sabotage it.

                                            Pattern
      OIG believes the current evidence does not support a finding of pattern related to the
Mentor's actions.

                                  Impact on the Research Record
        The NSF proposal containing the plagiarized text was funded for $400,000 over three years.
The University however placed an administrative hold on the award pending the outcome of its
investigation and no award money was drawn out. The University decided after the investigation to
terminate the award. NSF funds were therefore not used in support of this award and can be
reallocated towards other awards.12'

       The Mentor's actions did however adversely affect the research community in that the
decision to fund the Mentor's proposal meant that another researcher's proposal did not receive
funding. In addition, research that reviewers deemed worthy of funding will not be undertaken due to
the Mentor's actions and the resulting termination of the award.

                                         Other Relevant Factors
        The nature and seriousness of the Mentor's actions are such that OIG recommends that NSF
needs to take action to ensure that the scientific community understands NSF's position regarding
mentor-student relationships. While NSF never condones plagiarism of words or ideas, such actions
become significantly more unscrupulous when a student becomes the victim of his or her mentor's
actions. As the National Science Foundation, NSF's responsibility is not only to fund the next
generation of scientists, but to help foster these new careers. Correcting mistreatment of these young
scholars is one such way to accomplish this task.

                           The Subject's Response to Draft Investi~ationReport

       NSF OIG sent the Mentor a copy of its draft investigation report.'28 In that report, we
recommended making a finding of research misconduct; sending the Mentor a letter of reprimand;
debarring him for 2 years; requiring certifications and assurances for 3 years following the
debarment period; barring him from serving as a reviewer of NSF proposals for 3 years; and
requiring certification of his having attended an ethics course.



'*' The FCTR and the Obligation Report confirm that the Year 1 award of $120,000 was terminated prior to the
   Tab 2, Biographical Sketch.

expenditure of any award funds.
   Tab 39 contains the letter OIG sent the Mentor. The draft investigation report, not included in the attachments, is
identical to the current report aside £rom this section and amended recommendations.
        The Mentor provided an extensive written response to our draft report.129He reiterated that:
the act was an honest error; he co-authored the Fellowship proposal; he received explicit permission
from the Graduate Student to resubmit the document; he believed he had sufficiently attributed the
Graduate Student's contribution to the NSF proposal; he did not hide the resubmission from the
Graduate Student or the University faculty member; character references attest to his integrity as a
mentor and researcher;I3O and he would not have resubmitted the document without permission.13'
The Mentor also requested OIG further investigate the matter.132

         Given the similarity between the Mentor's current and previous responses, OIG determined
that substantial re-investigation was unwarranted. However, OIG did further investigate two issues.
First, the Mentor stated that manuscripts he and the Graduate Student co-authored illustrated a
general pattern of co-authorship. Of note was his statement that:


           Article 2 1 ' ~and                                                         I
           Much of the [Fellowship] proposal is based on the two publications Article 1 and
                            ~ formed the basis for a third publication [Article 31' that [the
           Graduate Student] and I co-authored, as well as on my [University faculty
           grant]135from 1 9 9 7 . l ~ ~

Since the University report had not examined this third co-authored publication, OIG examined the
text in that publication, and re-examined the text in the other co-authored articles and the University
faculty grant, to see whether identical verbatim text appeared in the Fellowship and NSF proposals.

       In examining the articles, OIG noted that no or little identical text existed between the
University faculty grant and the proposals, and Article 113' and the proposals. Thus although the
ideas.were similar between documents, the text was not copied verbatim, but instead rewritten.

        Conversely, OIG found 56 lines of identical or nearly identical text, 3 identical or nearly
identical figures and captions, and 6 identical embedded references in the proposals that had been
taken from Article 2 (written before both proposals) and that appeared in Article 3 (written after the
Fellowship proposal but before the NSF proposal). 13* In the proposals, these materials were located



Iz9 Tab 40.
    Tab 41 contains the letters of character reference sent on the Mentor's behalf.
131
    Tab 40, pg 1.




'3Tab 23.
      Tab 40, pg 9.
13'   Tab 42.
      Tab 42.
in the "Background and Significance" section and "Research Design and Methods" section,
specifically in regard to "Overall goals" and Specific Aim 1.1.13'

        Thus, some text in Article 2 does appear in the Fellowship/NSF proposal, and some text in
the FellowshipINSF proposal does appear in Article 3, although these are relatively minimal uses of
verbatim language. The relationships between the proposals and the articles do not appear to be as
extensive as the Mentor claims. However, the fact that some duplication of text can be observed
among the Fellowship proposal and the collaborative articles (written before and after the
Fellowship proposal) does tend to reduce the strength of the evidence supporting the conclusions of
Committee 2 and OIG as to the authorship of the Fellowship proposal. While the new evidtnce does
not reduce the level of certainty below the evidentiary threshold, it does provide a basis for
mitigating OIG's recommendations.

       The second issue OIG further investigated was the Mentor's claim that his students were not
required to leave all their materials upon departing his lab. He stated:

        I was given a CD with open source files of [the Graduate Student's Fellowship]
        proposal to use as a template for the NSF proposal. Although I required that
        students leave copies of their data for their NIH-funded research, I did not require
        that they leave copies - and particularly open source files - of their written work
        (particularly unfunded grant proposals). ... That [the Graduate Student] did so      .
        was by her own volition and our explicit agreement that I would resubmit the co-
        authored [Fellowship] proposal to NSF.'~'

The Graduate Student confirmed that she was not aware of any official rule for departing personnel
requiring that they leave data. She said she returned the University computer to the Mentor and
provided him with a CD of her data, of her own volition. She explained that she and the Mentor
were co-authoring a review article and that he was accessing drafts. She also explained that a PI is
responsible for maintaining the data. The Graduate Student said she did not purge her personal
written materials fiom the computer or CD, but rather provided the Mentor with everything
contained therein. 14'

        Although the Graduate Student left the materials of her own volition and chose not to purge
her personal writings fiom the computer and CD, her reaction to the resubmission of the proposal to
NSF - one of confusion'42- indicates that she did not intend for the Mentor to use her personal
written materials without permission, as she claims he did. Nonetheless, the Graduate Student's
action of handing over her unsecured personal documents is an action that could easily have been
misconstrued by the Mentor, and as such, does mitigate the offense.

       NSF OIG determined that both the presence of co-authored identical text within the proposal                             .
and the Graduate Student's choice to willingly leave personal documents substantial mitigating

      Tab 43 contains an annotated version of the NSF proposal. (Blue indicates Article 2 as source; Red indicates Article 3
as source.)
  140 Tab 40, pg 14.
  I4l Tab 44.
'41 Tab 44.
factors. However, these factors are not enough to reverse our belief that a finding of misconduct is
warranted; the fact remains that the Subject's sole authored NSF proposal is identical in words to the
Graduate Student's sole authored Fellowship proposal and does not recognize the Graduate Student
as a named author. OIG therefore upholds its determination that the Mentor did, by a preponderance
of evidence, recklessly plagiarize text, under circumstances constitutin a significant departure fiom
accepted practices, thereby committing an act of research misconduct.153

                                                     Recommendation

OIG has changed its initial recommendations based on the above mitigating factors. OIG now
recommends that NSF:

                    send a letter of reprimand to the Mentor informing him that NSF has made a finding
                    of research misc~nduct;'~~

                    require the Mentor to certify to the AIGI, Office of Inspector General, that proposals
                    or reports he submits to NSF do not contain plagiarized, falsified, or fabricated
                    material for 2 years;'45

                    require that the Mentor submit assurances by a responsible official of his employer to
                    AIGI, Office of Inspector General, that any proposals or reports submitted by the
                    subject to NSF do not contain plagiarized, falsified, or fabricated material for 2
                    years;'46and

                    require the Mentor to complete an ethics course and provide documentation of its
                    completion to OIG upon completion.




'" A letter of reprimand is a Group I action (45 C.F.R. $689.3(a)(l)(i)).
143   45 C.F.R. part 689.

'41   Certification by an individual is a Group I action (45 C.F.R. §689.3(a)(l)(iii)).
'46   Requirement for assurances is a Group I action (45 C.F.R. $689.3(a)(l)(iii)).
